                             NATIONAL SCIENCE FOUNDATIOl$
                                 ARLINGTON, VA 22230




        Office of
    Inspector General



    MEMORANDUM                                                                 i
        DATE:     May   -1

        FROM: 4
         VIA: 4

           TO:    Case No. I93090037

    On August 31, 1993, we were notified by
    NSF's Division of Administrative Services            that several
    thefts had taken place in the NSF
    stolen included $40 cash from
                                              Fitness Facility. Items
                                              miscellaneous items of
                                                                          '    'I
    clothing from several people, and                  personal credit
    card. onSeptember 17, ,1993,we were notified of another theft of
    an NSF employee':, personal credit card. Both stslen credit cards
    were used to make fraudulent purchases at area stcres.
    We interviewed merchants and salespersons at the locations where      #I   i
    the credit cards were used. Because one merchant stated that the
    suspect wore a U.S. Secret Service-type personnel identification
    card on a chain, and because Secret Service employees had access to
    the Fitness Facility area, we enlisted the aid of the Secret
    Service.   Further investigation revealed that no merchants had
    security tape footage of the purchases, but several were able to      1 )I
    provide us with the original purchase receipts.
    Based on ETAS records
    identified an NSF employee,
    thefts. On September 24,                                 with the
                                                                               1
    assistance of Secret Service Agent                      disavowed          9



    knowledge of the thefts,
    did not match the signatures on the credit card receipts.
    On March.5 , 1994
                    f-              DAS in£ormed us that he saw a black
    male in an NSF hallway who he remembered being present in the
-   Fitness                                             discovered that

    '"YIP
            me of this employee w                    . We interviewed          I
             on March 11, 1994.                        nvolvement, and
    p r o m ed us with                                 by the Forensic
    Document                         and Naturalization Service, on the
    similarity of          handwriting to the handwriting on the credit
card receipts yielded inconclusive results; according to the         'I   ,I
document examiner, no definite results could be obtained because
the forger mimicked the original signatures on the back of the'
credit cards.
Finally, we contacted the Federal Bureau of Investigation's Latent
Fingerprints Section, which agreed to compare fing
the credit card receipts with the fingerprints of
and Secret Service employees (which were easily
comparison yielded negative results.



                                                                               -1
Due to the lack of further leads to pursue, further investigation
into this matter is not warranted. This case is closed.
                                               .- - .   .

                                                                          \
                                                                                    1
